<html>
<title> - AFFORDABLE HOUSING IN WEST VIRGINIA: CHALLENGES IN THE EASTERN PANHANDLE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                 AFFORDABLE HOUSING IN WEST VIRGINIA: 
                  CHALLENGES IN THE EASTERN PANHANDLE 

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   HOUSING AND COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2008

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 110-134

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-907 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















                 HOUSE COMMITTEE ON FINANCIAL SERVICES





                 BARNEY FRANK, Massachusetts, Chairman

PAUL E. KANJORSKI, Pennsylvania      SPENCER BACHUS, Alabama
MAXINE WATERS, California            DEBORAH PRYCE, Ohio
CAROLYN B. MALONEY, New York         MICHAEL N. CASTLE, Delaware
LUIS V. GUTIERREZ, Illinois          PETER T. KING, New York
NYDIA M. VELAZQUEZ, New York         EDWARD R. ROYCE, California
MELVIN L. WATT, North Carolina       FRANK D. LUCAS, Oklahoma
GARY L. ACKERMAN, New York           RON PAUL, Texas
BRAD SHERMAN, California             STEVEN C. LaTOURETTE, Ohio
GREGORY W. MEEKS, New York           DONALD A. MANZULLO, Illinois
DENNIS MOORE, Kansas                 WALTER B. JONES, Jr., North 
MICHAEL E. CAPUANO, Massachusetts        Carolina
RUBEN HINOJOSA, Texas                JUDY BIGGERT, Illinois
WM. LACY CLAY, Missouri              CHRISTOPHER SHAYS, Connecticut
CAROLYN McCARTHY, New York           GARY G. MILLER, California
JOE BACA, California                 SHELLEY MOORE CAPITO, West 
STEPHEN F. LYNCH, Massachusetts          Virginia
BRAD MILLER, North Carolina          TOM FEENEY, Florida
DAVID SCOTT, Georgia                 JEB HENSARLING, Texas
AL GREEN, Texas                      SCOTT GARRETT, New Jersey
EMANUEL CLEAVER, Missouri            GINNY BROWN-WAITE, Florida
MELISSA L. BEAN, Illinois            J. GRESHAM BARRETT, South Carolina
GWEN MOORE, Wisconsin,               JIM GERLACH, Pennsylvania
LINCOLN DAVIS, Tennessee             STEVAN PEARCE, New Mexico
PAUL W. HODES, New Hampshire         RANDY NEUGEBAUER, Texas
KEITH ELLISON, Minnesota             TOM PRICE, Georgia
RON KLEIN, Florida                   GEOFF DAVIS, Kentucky
TIM MAHONEY, Florida                 PATRICK T. McHENRY, North Carolina
CHARLES A. WILSON, Ohio              JOHN CAMPBELL, California
ED PERLMUTTER, Colorado              ADAM PUTNAM, Florida
CHRISTOPHER S. MURPHY, Connecticut   MICHELE BACHMANN, Minnesota
JOE DONNELLY, Indiana                PETER J. ROSKAM, Illinois
BILL FOSTER, Illinois                THADDEUS G. McCOTTER, Michigan
ANDRE CARSON, Indiana                KEVIN McCARTHY, California
JACKIE SPEIER, California            DEAN HELLER, Nevada
DON CAZAYOUX, Louisiana
TRAVIS CHILDERS, Mississippi

        Jeanne M. Roslanowick, Staff Director and Chief Counsel
           Subcommittee on Housing and Community Opportunity

                 MAXINE WATERS, California, Chairwoman

NYDIA M. VELAZQUEZ, New York         SHELLEY MOORE CAPITO, West 
STEPHEN F. LYNCH, Massachusetts          Virginia
EMANUEL CLEAVER, Missouri            STEVAN PEARCE, New Mexico
AL GREEN, Texas                      PETER T. KING, New York
WM. LACY CLAY, Missouri              JUDY BIGGERT, Illinois
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
GWEN MOORE, Wisconsin,               GARY G. MILLER, California
KEITH ELLISON, Minnesota             SCOTT GARRETT, New Jersey
CHRISTOPHER S. MURPHY, Connecticut   RANDY NEUGEBAUER, Texas
JOE DONNELLY, Indiana                GEOFF DAVIS, Kentucky
MICHAEL E. CAPUANO, Massachusetts    JOHN CAMPBELL, California
CHARLES A. WILSON, Ohio              THADDEUS G. McCOTTER, Michigan
DON CAZAYOUX, Louisiana              KEVIN McCARTHY, California


























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    July 29, 2008................................................     1
Appendix:
    July 29, 2008................................................    29

                               WITNESSES
                         Tuesday, July 29, 2008

Bernardi, Hon. Roy A., Deputy Secretary, U.S. Department of 
  Housing and Urban Development..................................     5
Davis, Hon. Russell T., Administrator for Housing and Community 
  Facilities Program, Rural Development, U.S. Department of 
  Agriculture....................................................     7
Dodson, Catherine, Executive Director, Martinsburg Housing 
  Authority......................................................    15
Grove, Edward, Pastor, Trinity United Methodist Church; and 
  member, Men of Valor and Vision................................    22
Karos, Hon. George, Mayor, City of Martinsburg, West Virginia....    13
Rathbun, David, Senior Director, Single-Family Programs, West 
  Virginia Housing Development Fund..............................    18
Ross, David, Men of Valor and Vision.............................    16

                                APPENDIX

Prepared statements:
    Bernardi, Hon. Roy A.........................................    30
    Davis, Hon. Russell T........................................    32
    Dodson, Catherine............................................    37
    Karos, Hon. George...........................................    39
    Ross, David..................................................    42


                  AFFORDABLE HOUSING IN WEST VIRGINIA:
                  CHALLENGES IN THE EASTERN PANHANDLE

                              ----------                              


                         Tuesday, July 29, 2008

             U.S. House of Representatives,
                        Subcommittee on Housing and
                             Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 11:24 a.m., at 
the Berkeley County Commission, suite 201, 400 West Stephen 
Street, Martinsburg, West Virginia, Hon. Maxine Waters 
[chairwoman of the subcommittee] presiding.
    Members present: Representatives Waters and Capito.
    Chairwoman Waters. This hearing of the Subcommittee on 
Housing and Community Opportunity will come to order.
    Good morning, ladies and gentlemen. What a wonderful 
turnout. Thank you so much for your presence this morning.
    I would like to start by thanking the Berkeley County 
Commission for allowing us to use this space for today's 
hearing on ``Affordable Housing in West Virginia: Challenges in 
the Eastern Panhandle.''
    Now I am going to stop for a moment because we have with 
us, as you can all see, Commission President Steven Teufel, and 
he would like to say a few words of welcome.
    Mr. Teufel. Good morning, everyone. I am pleased to have 
the opportunity to greet all assembled here today, and to thank 
Congresswoman Capito and Chairwoman Waters for holding this 
important congressional field hearing in Berkeley County and in 
the Berkeley County Commission chambers. Like much of the rest 
of the country, Berkeley County has wrestled with the struggle 
for affordable housing for our citizens. Berkeley County has 
partnered with Jefferson and Morgan County Commissions in the 
City of Martinsburg as part of an Eastern Panhandle Housing 
Consortium which offers Federal finances to assist in 
downpayments and closing costs for home buyers seeking their 
portion of the American dream.
    We appreciate all efforts to bring affordability issues to 
the attention of Congress and to partner in creative means of 
making this American dream possible to all Americans.
    Thank you for your choice of Berkeley County for this 
important congressional field hearing. We appreciate your 
attention to these important matters.
    Thank you.
    Chairwoman Waters. Thank you very much.
    I would especially like to thank the subcommittee's ranking 
member for requesting that I hold a field hearing focused on 
affordable housing challenges here in the State of West 
Virginia.
    When Ranking Member Capito requested this hearing, I was 
pleased to grant her request because I have become very 
interested in the unique housing challenges facing West 
Virginia. Although it has a relatively small population, with 
1.8 million residents as of 2007, West Virginia's housing 
market presents large challenges. To an outsider, at first 
glance, it seems as if housing is affordable. For someone like 
me who comes from Los Angeles where the median home price is 
$529,000, the housing costs in West Virginia seem downright 
reasonable. It costs over $400,000 less to purchase the median 
home here.
    On the other hand, reasonable does not necessarily mean 
affordable. West Virginia has one of the Nation's highest rates 
of individuals living in poverty with 17.3 percent of 
individuals in poverty compared to the national average of 13.3 
percent. Only Mississippi, Louisiana, the District of Columbia, 
and New Mexico have a higher poverty rate.
    In terms of median family income, West Virginia rates last 
nationally. In 2006, West Virginia families earned a median 
family income of about $44,012, substantially below the 
national median of $58,526.
    The high poverty rate and low median family income make 
affordable housing especially critical. According to the 
National Low Income Housing Coalition, 81 percent of the 15,074 
extremely-low-income renters in the Second Congressional 
District, which includes the City of Martinsburg, are extremely 
cost-burdensome, paying over 50 percent of their income on 
housing costs.
    This is a situation that has gotten worse. From 2000 to 
2008, fair market rents have increased by an average of 39 
percent in Martinsburg, and a renter would have to earn $13.10 
an hour in order to afford the rent on a two-bedroom apartment.
    Given this situation, it is clear that more affordable 
rental housing opportunities are needed. Unfortunately, public 
housing and Section 8 resources are being pushed to the limit 
and are failing to meet the overwhelming need. As Mayor Karos 
will testify, the City of Martinsburg only has 300 housing 
choice vouchers for 12,500 low-income households. Like every 
other State, West Virginia has been affected by the foreclosure 
crisis, albeit not to the same extent as my home State of 
California which has the Nation's second-highest foreclosure 
rate.
    Although West Virginia has one of the lowest foreclosure 
rates in the Nation, 48th overall, with only one foreclosure 
for every 4,501 households, the effects of the housing bubble 
and burst are still being felt. Here, just as in States with 
high foreclosure rates such as California, Nevada, and Ohio, 
the foreclosure crisis and subprime meltdown are affecting West 
Virginians in different ways.
    First, increased housing costs resulting from the bubble 
have served to place rental housing further out of reach for 
many families in West Virginia, including those in the Eastern 
Panhandle. Although housing prices are falling in some parts of 
the State, such as Jefferson County, homeowners trying to rent 
their properties are reluctant to charge a market rent because 
they are trying to cover the cost of a higher mortgage. As a 
result, affordable rental housing remains out of reach.
    Second, falling home prices in some parts of the State have 
caused some families to be upside-down on their mortgages, 
owing more than they are worth.
    For these families, refinancing their mortgages isn't an 
option because of the credit crunch and tighter lending 
standards. Even for families with sound mortgages, tighter 
lending standards resulting from the subprime meltdown have 
served to reduce credit to households in West Virginia, much as 
it has to households in California.
    Third, abandoned and foreclosed properties are taking a 
toll on the Nation's neighborhoods, including those in West 
Virginia. This is why I introduced H.R. 5818, the Neighborhood 
Stabilization Act of 2008, to provide much-needed bonds to 
States and local governments detailed with this aspect of the 
foreclosure crisis.
    I am extremely pleased that the housing rescue package 
recently passed by the House and Senate and expected to be 
signed into law by the President today will include $4 billion 
for States and cities to buy up and rehabilitate abandoned 
foreclosed properties and put them back on the market. I must 
note that this provision will provide $23.1 million for the 
State of West Virginia, with almost half going to the Second 
Congressional District for the rescue and rehabilitation of 748 
abandoned and foreclosed properties.
    These funds will also have a stimulative effect on West 
Virginia's economy by: One, generating $48 million in 
additional economic activity; two, creating 447 new jobs; 
three, producing $40.6 million in property taxes; and four, 
saving the State about $7.5 in police, fire, trash collection, 
and other costs associated with the maintenance of abandoned 
and foreclosed properties.
    It is clear that the recently passed housing bill will go a 
long way toward alleviating the foreclosure crisis in not only 
those States hardest hit but also in States like West Virginia 
that experience the indirect effects of the housing downturn. 
So I am looking forward to hearing from our two panels of 
witnesses on the state of affordable housing in West Virginia.
    Let me just say that it gives me great pleasure to 
recognize our subcommittee's ranking member, who has worked so 
hard on all of these issues. And, as a matter of fact, I am 
going to admonish my staff just a little bit.
    It should not be me giving you all of the good news. Your 
Representative should be doing that. And I am sure that she 
will.
    It is my great pleasure to yield as much time as needed to 
Mrs. Capito. Thank you.
    Mrs. Capito. I want to thank Chairwoman Waters for her 
leadership on our committee.
    For those of you who are just now seeing her for the very 
first time in person--I am certain that most everyone in this 
room has seen her leadership through the national media, and 
she is quite an advocate and I have learned quite a bit by 
sitting at her side as the ranking member of the Housing 
Subcommittee of the Committee on Financial Services.
    I also want to welcome you to West Virginia. I asked you 
last week if you had ever been to West Virginia; well, you have 
been here now.
    Chairwoman Waters. That is right.
    Mrs. Capito. I was going to think of something really kind 
of corny, like making you an honorary Mountaineer or something 
like that, but I can bring you something when we get back.
    Chairwoman Waters. Does it mean I have to climb a mountain?
    Mrs. Capito. Yes, it does.
    But, anyway, welcome to the Mountain State and to the 
beautiful City of Martinsburg.
    As you have probably already seen, the unusual geography of 
our State provides many unique challenges to the availability 
of affordable housing. Areas like Martinsburg and the Eastern 
Panhandle are rapidly growing, while other regions are facing 
stagnant growth and an older stock of affordable housing.
    It is my hope that this hearing will highlight some of the 
challenges rural States, like West Virginia, face with the 
availability of affordable housing.
    At times, West Virginia leads the Nation in some of the 
statistics that you read in the less than desirable categories. 
However, in many ways, we are a leader in the availability of 
affordable housing. And you did mention a statistic that we are 
48th in foreclosure, and we are always happy to be at the 
bottom of the wrong list. We are very happy about that.
    But we do have challenges, particularly here in the Eastern 
Panhandle. West Virginia has some of the highest rates of 
homeownership, just over 78 percent, which is almost 10 points 
higher than the national average, of the population who own 
their own home. And recent studies have shown that we have some 
of the lowest rates of foreclosure, as we both mentioned. At a 
time when many other regions of our Nation like your region in 
California are facing tremendous challenges, West Virginia 
continues to persevere. That is one of our ingrained qualities 
that we are all born with--it is already in my statement. I 
attribute this to the hardworking people--our staffs are on the 
ball--and we have a lot of hardworking people, and we fulfill 
our obligations.
    Although we are a leader in homeownership rates, we still 
have challenges. Significant growth in the Eastern Panhandle 
here, we have a lot of folks who move into the Eastern 
Panhandle from the suburbs of Washington, and the suburbs of 
Virginia for a lot of reasons. I say it is because of quality 
of life, affordability, and a low crime rate. I could go on and 
on. But that is why a lot of folks come here, and it has been a 
blessing to our economy.
    However, this growth has also led to this region being one 
of the few in the State that is affected by the recent troubles 
in the subprime mortgage market; Berkeley, Jefferson, and 
Morgan Counties have slightly higher rates of foreclosure.
    West Virginia also faces challenges in meeting the needs of 
our veterans and disabled populations. We have a very large VA 
center here in Martinsburg we are very proud of. We have 
significantly higher proportions in the State than the national 
average of both veterans and disabled populations.
    I am looking forward to learning more from our witness from 
Men of Valor and Visions, a group dedicated to caring for the 
men and women who serve our Nation so honorably. The care of 
our veterans must be a community effort, and it certainly is 
here in Martinsburg and in Berkeley County. I am pleased to 
share in the great accomplishments of this group.
    Unfortunately, our State's low median income can place 
undue burden on those who are trying to better themselves and 
become more independent: 81 percent in the Second District of 
extremely-low-income renters are severely cost burdened, as you 
mentioned in your statement. This is particularly difficult for 
families living in growing areas like the Eastern Panhandle 
where the cost of living is in some case outpacing wage 
increases. With the migration from the metropolitan area also 
comes the higher cost of living, in some cases.
    I would like to thank our witnesses for joining us today. 
This is a wonderful outpouring of community support. I think we 
have great witnesses. We are going to learn a lot.
    This is really how we run a hearing in the Rayburn 
Building, with Ms. Waters wielding the gavel. And we are going 
to try to stick to the procedure and question the appropriate 
witnesses when they are finished giving their testimony.
    The information we will share with you today is 
instrumental in highlighting some of the unique challenges 
facing West Virginia.
    Again, I would like to thank the chairwoman for bringing 
the subcommittee to West Virginia. It means quite a bit to us 
and we look forward to our continued work together.
    I will yield back the balance of my time.
    Chairwoman Waters. Thank you very much. I am delighted to 
be here.
    I would now like to introduce our first panel of witnesses: 
the Honorable Roy A. Bernardi, Deputy Secretary, U.S. 
Department of Housing and Urban Development; and the Honorable 
Russell T. Davis, Administrator, Housing and Community 
Facilities Program, Rural Development, U.S. Department of 
Agriculture.
    Thank you all for appearing before our subcommittee today. 
And without objection, your written statements will be made a 
part of the record. You will now be recognized for a 5-minute 
summary of your testimony.
    We will start with you, Mr. Bernardi.

 STATEMENT OF THE HONORABLE ROY A. BERNARDI, DEPUTY SECRETARY, 
        U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Bernardi. Thank you, Chairwoman Waters.
    It is really nice to be here in the beautiful State of West 
Virginia with Ranking Member Capito.
    Mrs. Capito. Is your microphone on?
    Mr. Bernardi. The only important part I stated there was 
the beautiful State of West Virginia.
    Chairwoman Waters. I think they heard you in the back.
    Mr. Bernardi. While West Virginia enjoys one of the lowest 
housing foreclosure rates in the country, and that has been a 
drastic--in fact, foreclosure rate on subprime is even lower 
than the overall foreclosure rates as I understand it--there 
are still many challenges facing the State when it comes to 
affordable housing.
    My testimony will discuss some of the programs at HUD and 
how those programs affect affordable housing here in West 
Virginia. I will discuss the status of public housing and 
voucher programs, programs that serve our veterans, our 
homeless as well as elderly housing.
    The Housing Choice Voucher Program is the Federal 
Government's largest program for assisting very-low-income 
families, the elderly, and the disabled, so they can afford 
decent, safe, and sanitary housing in the private market. 
Because housing assistance is provided on behalf of the family 
or individual, participants are able to find their own housing, 
including single-family homes, townhouses, and apartments. 
Housing choice vouchers are administered locally by public 
housing agencies who receive their Federal funding from HUD to 
administer the voucher program.
    There are 24 housing authorities in West Virginia, with the 
Charleston Housing Authority serving most of the panhandle 
area. Over 14,000 vouchers were leased monthly during the 
period of April 2007 to March of 2008, and approximately $54 
million of funding was used for the units leased during that 
period of time.
    The Housing and Urban Development Veterans Affairs 
Supportive Housing program, known as HUD-VASH is a supportive 
service program for homeless veterans that combines HUD's 
Housing Choice Voucher Program rental assistance with case 
management and clinical services provided by the Department of 
Veterans Affairs at its medical centers and in the community.
    The 2008 Consolidated Appropriations Act provided $75 
million to the HUD-VASH Voucher program. And a total of 
$433,600 was awarded to three PHAs in West Virginia to fund 105 
HUD-VASH vouchers. The three PHAs, the Huntington, Martinsburg 
and Clarksburg Housing Authorities, each receive funding for 35 
HUD-VASH vouchers. The way this works is that the veterans are 
referred to the PHAs by their partnering VA medical centers. As 
of July 2008, seven veterans have been referred to the PHAs by 
their partnering VA medical centers: four to Clarksburg; and 
three to Martinsburg. Vouchers were issued to all seven of the 
referred veterans. One veteran has been brought under leased 
contract by the Clarksburg Housing Authority. Two of the 
veterans in Martinsburg have found units, and the PHA will 
bring the units under Housing Assistance Payments contracts as 
soon as the units are inspected.
    Now it seems like this is taking a considerable amount of 
time, but we really didn't receive all that we needed until May 
of 2008. The Veterans Department is putting together training 
teams to put on more advisors, and in August, there will be a 
national meeting, and hundreds of additional advisors and 
inspectors will be onboard.
    The Huntington Housing Authority expects to receive its 
first three referrals from the VA medical center in the next 
week or two.
    The Continuum of Care is a set of three competitive awarded 
programs created to address the problems of homelessness. We 
are trying to do this in a comprehensive manner with other 
Federal agencies and, of course, our State and local partners. 
In 2007, the Continuum of Care National Homeless Competition, 
all four of West Virginia's Continuums of Care receive funding. 
And 80 percent of their projects were awarded a total of 
$2,280,000 to reduce the incidence of homelessness and the COCs 
within those communities. HUD funded 342 beds and will serve 
over 1,300 people in 20 Supportive Housing and Shelter Plus 
Care projects.
    In the continuing competition, homeless veterans were 
represented by 16 organizations in West Virginia. And as the 
continuums know, when you have that type of representation, not 
only does that help the veterans, but it also adds points to 
the competition for the Continuums of Care.
    The continuums are required to involve organizations 
serving veterans with specific experience in their programs. 
The Emergency Shelter Grant program provided West Virginia with 
a total of $1 million. That is a $130 million program 
nationwide, and that provides the basic shelter and essential 
supportive services for those who are in desperate need.
    Now HUD defines elderly households as those with either a 
head or spouse who is at least 62 years of age. The Census 
shows that West Virginia has the 5th highest proportion of 
elderly population, 14 to 16 percent, the 5th in the country, 
behind only Florida, Pennsylvania, Iowa, and Rhode Island. Now 
that tells me that people love West Virginia and like to spend 
their senior years here. There are 264,800 elderly people who 
live in West Virginia, and that is measured by the American 
Community Survey.
    The need for affordable housing for the elderly is great in 
West Virginia, as it is in other areas of the country as well, 
and it is increasing. There are currently 185 project-based 
Section 8 developments in West Virginia with almost 12,000 
units. Of those units, 11,000 are under project-based Section 8 
housing assistant payment contracts today. The number of 
contracts expiring through December of 2008 is 18; those 18 
contracts involve just over 1,500 units, and we expect that 
these contracts will be renewed this year. For the past 3 
years, all owners with expiring contracts chose to renew, and 
there were no opt-outs. And obviously, that is very important. 
That is very good. That maintains the number of units that you 
have.
    Now, I want to conclude by thanking Congresswoman Capito 
and Chairwoman Waters for their early and steadfast support of 
FHA modernization, the landmark bill that they both just 
addressed, that the President will sign today, which will go a 
long way in dealing with the foreclosure crisis that we face in 
this country.
    And I will be happy to take any questions on that and 
anything else you may have. Thank you.
    [The prepared statement of Deputy Secretary Bernardi can be 
found on page 30 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Now, the Honorable Russell Davis for 5 minutes.

STATEMENT OF THE HONORABLE RUSSELL T. DAVIS, ADMINISTRATOR FOR 
 HOUSING AND COMMUNITY FACILITIES PROGRAM, RURAL DEVELOPMENT, 
                 U.S. DEPARTMENT OF AGRICULTURE

    Mr. Davis. Madam Chairwoman and Madam Ranking Member, I 
would like to thank you for inviting USDA Rural Development to 
your hearing this morning.
    I would like to start by describing the overall national 
situation for our Agency because that provides some context for 
West Virginia's situation. Nationwide, USDA Rural Development 
is near its all-time low in foreclosure rates. The real point 
is that not all markets in America are the same. Some are doing 
well; some are doing poorly.
    And that is mirrored in this State also where you have the 
Panhandle experiencing one type of market and another type of 
market in some of the other areas of the State. In fact, we 
have only four States where our foreclosures are up. I call 
these situations palm trees and smokestacks. We have 
California, Texas, and Florida; those are the palm trees, and 
those are desirable high-cost areas. And then we have Michigan, 
which is experiencing out-migration and loss of jobs. And these 
are the two fact patterns that we face in rural America, and 
they require two different sets of policies in dealing with 
them.
    One of the things that we are very proud of is our work 
with people facing foreclosure. We now have a 63 percent cure 
rate on our foreclosures. We keep 63 percent of the people who 
are going through foreclosure with us in their homes and bring 
them back current on their loans. That is something we have 
been working very hard on, helping people who are stressed, who 
are facing higher gas prices, higher insurance costs, and local 
taxes.
    It is also important to look at why rural America is facing 
overall a different level of stress than some of the urban 
areas. And it is really four factors that I have identified in 
my written testimony, which I am following fairly closely here:
    The first is that rural America never got the big bubble 
that some of the suburban and urban areas got. The fact is that 
there are 2,000 non-metro counties in America, and almost half 
of them face either stagnant populations or declining 
populations. So we never got the big increase in prices in most 
of the areas.
    Where we do have the increase in price, what our Agency can 
do to help is to maintain the flow of mortgage money into those 
markets to keep bringing new home buyers in and to keep the 
prices up at market levels instead of a decrease in prices 
below market levels caused by a lack of market credit.
    The second thing is that we have emphasized solid 
underwriting. Sometimes people complain about bureaucracy and 
so forth, but we require the documentation. We want to see the 
income tax returns. We want to see the actual appraisals and 
evidence of solid underwriting. At the same time, we are very 
proud of the fact that we can step in and make human decisions. 
And this is something that has sometimes been lost in the 
mechanical numbers-based underwriting; 23 percent of our loans 
go to people with fair or poor or no credit rating, fully a 
quarter of our loans. Yet our delinquency rate is 35 percent 
lower than the private sector's. We are making loans to what 
would be arguably lower credits but having a better experience 
of it. And I think that speaks a lot toward solid underwriting, 
but having good decisionmaking and counseling and educating our 
borrowers.
    The third thing that we are seeing nationwide is that, 
although we don't make adjustable rate loans, our Single Family 
Direct Loan Program is adjustable rate in the sense that we 
change our subsidies. But the difference is that we don't just 
go to a new interest rate and say, here, meet this higher 
interest rate. We do a means test. In other words, we approach 
every change in the rate as if it were a new loan, and we don't 
raise the payments unless the person's income can support it. 
So we means test any change in our payments, and that keeps us 
from having payment shocks that lead to foreclosure and stress.
    And finally, we do not hastily seize homes of borrowers who 
are in trouble. We have a 600-person servicing operation in St. 
Louis. We work closely with our borrowers. We get them 
counseling. We talk to them. It is just critical that lenders 
communicate with borrowers who are in trouble because there is 
a lot that can be done. And we are very proud of our success 
rate in keeping people in their homes and having a successful 
homeownership rate. Over 98 percent of our borrowers stay in 
their homes over the life of the loans, and we are very proud 
of that.
    We are also proud of the fact that we are stepping in where 
the private sector is not able to make loans. Our volume 
nationwide has doubled in the past year. And we are seeing this 
in West Virginia, also, that we are doing our job as a lender 
of last resort essentially. We are there when the private 
sector isn't.
    I have noticed that it runs in reverse. When the private 
sector is doing well, we step back. And over the period of 2001 
to 2007, we actually cut our portfolio in half, 250,000 loans. 
We counseled and got people private-sector credit ratings and 
into the private sector. So we are very pleased with that.
    I do want to mention our rental operations in West 
Virginia. A lot of people ask about the division of labor 
between HUD and USDA. USDA, the Department of Agriculture, is 
limited to towns under 20,000 in population.
    Secretary Bernardi mentioned that they have 185 multifamily 
properties in the State, and we have 245 properties. Now ours 
are smaller, but we have tried to put a pin in every little 
town on the map. And we are very committed to keeping those 
properties in our portfolio as assistive properties for very-
low-income residents. Our average income is about $9,000 per 
year. These are very-low-income residents. And we have a strong 
commitment to keeping this portfolio together.
    Nationwide, we have a vacancy rate of about 30,000 units. 
Congresswoman Capito had asked this morning what kind of 
waiting lists we have. It is just one of the facts of housing 
that sometimes the housing is not where the people are. We have 
empty housing units with full subsidies available, but they are 
in places where there are not the people. And so we are working 
to realign that and bring the resources more in line with the 
need.
    That is something with which State Director Rice here in 
West Virginia can help and encourage the localities who are 
here to discuss the availability of those resources in West 
Virginia.
    Thank you.
    [The prepared statement of Administrator Davis can be found 
on page 32 of the appendix.]
    Chairwoman Waters. Thank you very much, Mr. Davis.
    We are going to take a little time for some questions now.
    I suspect that Congresswoman Capito has a number of 
questions that she would like to ask, so I am just going to 
take a little bit of time.
    I am just going to ask, first, Mr. Bernardi, about small 
public housing authorities. I understand that they are run very 
well here, but sometimes I think, based on the information that 
I have, that some of the policies that apply to the huge or the 
big ones are the same policies that apply to smaller ones. Do 
you see that as a problem in trying to use the one-size-fits-
all approach in the administration of public housing authority 
programs? Or have you not experienced that as a problem at all?
    Mr. Bernardi. We have not experienced that as a problem. 
Basically, the formula is set that each housing authority 
receives the funding based on the need in that area. There is 
always more need. There is always a waiting list. But as far as 
the administration of the programs, I think our counterparts at 
Agriculture do the smaller ones in the rural areas, but the 
smaller housing authorities, it is easier to get a handle on 
those. It is easier to monitor those.
    In the final analysis, they have the same set of 
circumstances and difficulty as the larger authorities, which 
is lack of dollars to place the people who are on the waiting 
lists.
    Chairwoman Waters. Thank you very much.
    And to Mr. Davis, I am extremely impressed with the way in 
which you do workouts when you have constituents who are in 
trouble. We have not experienced that, as we have learned, what 
the servicers do and do not do as they handle this subprime 
meltdown that we are experiencing in the country.
    When you talked about the resets, and you don't necessarily 
have to charge an increased interest rate no matter what the 
market is dictating, and I suppose you don't also charge an 
extra margin that I have learned about in working with some of 
the other financial institutions. In addition to the going 
interest rate, they can increase that interest rate 1, 2, or 3 
percentage points with something called the margin. You don't 
use that at all, is that correct?
    Mr. Bernardi. No, ma'am. We do a strict means test and 
don't charge more than 29 percent of their income. We do not 
raise the payments above what they can afford.
    Chairwoman Waters. That is fabulous. So how does it all end 
up in this contract where you contracted for a certain amount 
for that entire mortgage? Does that mean that the principal 
ends up being reduced somehow?
    Mr. Bernardi. What we do is we move principal out to the 
end, and we do take a portion of the equity in the house, if 
necessary, and we recapture that but only upon sale and only 
under certain circumstances if it won't harm the borrower. But 
we do take an equity interest. We have certain flexibility that 
a lot of private-sector lenders who have designed their system 
for good markets find that they don't run the same way in bad 
markets.
    Chairwoman Waters. Well, perhaps you could write this up 
for us so that Mrs. Capito and I can take it back and give it 
to the HOPE NOW Coalition, so that they can learn how to do 
this.
    Thank you very much.
    I yield to the gentlewoman.
    Mrs. Capito. Thank you.
    I would like to first ask Mr. Bernardi a question. We just 
passed a massive housing bill and foreclosure avoidance act, a 
prevention act. And could you tell me how you think that is 
going to influence people who are facing foreclosure right now 
through HUD programs? I know it has FHA in there. Could you 
give us a little background on that please?
    Mr. Bernardi. Sure, Congresswoman. The FHA, back in August 
of 2007, we initiated what we call FHASecure. And the reason I 
bring that up is, when we first initiated that program, it was 
only to help those people who were already--who were behind in 
their payments but were not in a foreclosure situation.
    But going forward, we have helped 285,000 families to date 
refinance through FHASecure. And just a few months ago, we 
extended the ability for people to refinance even up to 3 
months when they would be delinquent on their payments.
    But the bill that just passed is going to provide us, 
thanks to the good work of all of you, another $300 billion in 
capacity to help those individuals who are basically 
underwater, people who are facing foreclosure. How that will 
work is that we will--lenders that have to do it under their 
own volition will deal with those borrowers. We will be doing 
the underwriting. And hopefully, by the--that program will 
begin October 1st of this year, now that the bill has been 
passed. It will run through September of 2011. And we are 
anticipating it will be able to help 400,000 to 500,000 
families refinance, get away from the rates that they had, put 
it into a fixed rate, if you will, and that would be FHASecure. 
We are kind of hoping that we will be able to help anywhere 
from 700,000 to 800,000 families over that period of time.
    The contact that you probably should have is that you can 
always contact the Housing Counseling Agency at HUD.gov and 
also the HOPE NOW Alliance that Chairwoman Waters talked about. 
You can reach them at 1-888-995-HOPE, and they will help you in 
the modification of your mortgage. You can also call FHA, of 
course.
    We are very excited that we have had this opportunity to 
assist. A lot of people are going to say, is this going to be 
enough? Well, I think it is a step in the right direction. At 
least we are making progress here. We are going to help folks 
who are right now looking--not only are they underwater. But 
the key though, as I go forward here, is that the lenders have 
to be able to participate. They can't pick off just the good 
notes that they are going to keep and send everything else over 
to FHA that is going to be a problem. That is why our 
underwriting is very, very important. The loans must have been 
originated on or before January 1, 2008. Now the borrowers' 
mortgage debt to income ratio must be at least 31 percent. The 
borrowers' household debt to income must be at least 43 
percent. We want to help the people who need it the most. And 
we are going to validate the income and the employment of all 
borrowers. We are not going to have any Ninja loans. And we are 
not going to provide, obviously, refinancing to individuals who 
cannot afford the numbers that come on the board.
    The way this will work is the lending institution--we are 
only going to be able to insure 90 percent of the present value 
of the home, which is very, very important. And so that will 
leave the lender with obviously some exposure. But if things go 
the way we would like, and the homeowner can make those 
payments, as times get better, and then there is more equity in 
that home, and that equity, upon the sale of the home, will be 
shared not only between the borrower but also with the 
government. That is a long answer to your question.
    Mrs. Capito. Thank you for that explanation.
    I think the base of this, too, is something that we have 
tried to encourage in the hearings that we have had. And 
certainly our witnesses, if you are facing foreclosure, the 
last thing that--intuitively the last thing you will want to do 
is talk to your bank or talk to your lender because you are 
almost in avoidance. It is too tough. There is no way out.
    We have been trying to encourage people that they have to 
work with their lender. And the best thing that you can do is 
contact your lender. And with this new program coming on, it 
has to be in conjunction with your lender. It is not required; 
it is a voluntary program. So you can't be avoiding your lender 
and participate in this problem at the same time.
    Mr. Bernardi. Congresswoman Capito, in this legislation I 
believe it is another $170 million for counseling in addition 
to the money--the National Reinvestment Corporation. You can't 
stress enough that individuals need to call, make that contact, 
and get in touch with the counselors to start the program.
    Mrs. Capito. Right. Thank you.
    And a question for Mr. Davis. In a State like West 
Virginia, and certainly across the country, a lot of our public 
housing stock is aging, as the rest of us are. And I think that 
this is a cause of great concern because--well, for obvious 
reasons.
    Now, I toured two very beautiful facilities today, and one 
was 10 years old, and one I believe was like 16 years old. And 
they are holding up quite nicely because they are well-
maintained and all of the things that you want.
    But what are you seeing long term here in terms of--I think 
a lot of things were built in the 1950's. And it is time to 
reshift, renew, rehabilitate, rehab. What are we going to do 
here about this?
    Mr. Davis. I think it is very instructive that rehab is so 
much cheaper than new construction. We spend $100,000 per unit 
on average building a new unit, but only $23,000 rehabilitating 
an old one. So, for the same amount of money, we can 
rehabilitate four properties or we can build a new one. Because 
of the vacancy rates, we would much rather do rehabilitation. 
That is where all of our extra resources are going now.
    Mrs. Capito. And does Agriculture have the resources to 
rehabilitate? I mean, is that part of your rural housing--
    Mr. Davis. Yes. This year, we will rehabilitate 200 
properties, and we have a total portfolio of 16,000 multifamily 
properties; as I have said, in West Virginia, 245 properties. 
So over the course of 30 years--
    Mrs. Capito. So you are doing all of ours, and then--
    Mr. Davis. Well, for a 30-year life cycle, we will cycle 
through all of them.
    Mrs. Capito. I am kidding.
    Mr. Davis. We don't have enough money to do it all in 1 
year. We cycle through.
    Mrs. Capito. Right. Thank you.
    Chairwoman Waters. Thank you.
    If you need additional time for more questions, please.
    Mrs. Capito. No. I am good.
    Chairwoman Waters. Well, I would like to thank you very 
much for being here and sharing this important testimony with 
us today. And if there is further information needed, we will 
be in contact with you.
    Thank you very much.
    Mr. Bernardi. Thank you.
    Chairwoman Waters. I would like to call our second panel of 
witnesses forward. First, the Honorable George Karos, Mayor, 
City of Martinsburg. Mr. Mayor, where are you? Am I pronouncing 
your name correctly? Is it ``Karos'' or ``Karos?''
    Mr. Karos. Madam Chairwoman, it is ``Karos,'' but it is 
pronounced all kinds of ways.
    Chairwoman Waters. Thank you for being here, Mr. Mayor. We 
are delighted to be in your City. Driving in, we could not help 
but remark what a beautiful place it is.
    Also, we have Ms. Catherine Dodson, executive director, 
Martinsburg Housing Authority; Mr. David Ross, Men of Valor and 
Visions; Ms. Mary Skeens, executive director, Community Works 
in West Virginia; and Mr. David Rathbun, West Virginia Housing 
Development Fund.
    Thank you all for being here today.
    Let's see who we are going to start with here. We are going 
to start with the mayor.

    STATEMENT OF THE HONORABLE GEORGE KAROS, MAYOR, CITY OF 
 MARTINSBURG, WEST VIRGINIA; ACCOMPANIED BY PATRICIA McMILLAN, 
   COMMUNITY DEVELOPMENT DIRECTOR, CITY OF MARTINSBURG, WEST 
                            VIRGINIA

    Mr. Karos. Madam Chairwoman, thank you for those kind 
remarks. I wanted to thank you publicly, but I couldn't find 
the right button to turn it on to thank you.
    We agree with everything you said about Martinsburg. And 
please come back for a visit.
    Madam Chairwoman and Congresswoman Capito, thank you for 
the opportunity to address the subcommittee today regarding 
affordable housing challenges facing the City of Martinsburg. 
We face several considerable challenges here in the City and 
throughout the Eastern Panhandle.
    Housing costs have risen dramatically. Even in a declining 
market, costs remain too high for many families earning local 
wages. This is true for home buyers and renters. Home buyers 
need assistance with downpayment and closing costs to enable 
them to obtain affordable mortgages.
    Many of our homeowners are elderly people living on fixed 
incomes that do not keep up with the increased costs of living.
    Heating costs are a tremendous burden of many, and our 
housing means is deferred because of other demands on their 
small incomes. Our low-income homeowners need assistance to 
repair their homes and to make them more energy-efficient.
    Rental housing costs are very high, resulting in 40 percent 
of renters paying more than 30 percent of their income for 
rent. Nearly 25 percent pay more than half of their monthly 
income for housing.
    This housing cost burden places family at risk of eviction, 
unstable housing situations, and homelessness. As heating costs 
nearly double this winter, even more families will face 
eviction or the threat of having utilities turned off.
    Eviction prevention is critical to preventing homelessness 
in our community. Homelessness among veterans in Martinsburg 
creates great demands on the local men's shelter and on our 
limited mental health and substance abuse services. We have 
made a number of efforts with our limited local and Federal 
resources to address these affordable housing problems in our 
City and the Eastern Panhandle.
    First, we appreciate that, for the past 4 years, we have 
received Community Development Block Grant funds from HUD. 
Beginning last year, we implemented a HOME consortium for the 
City of Martinsburg and the Eastern Panhandle counties of 
Berkeley, Jefferson, and Morgan. Using these funds, plus 
funding from local governments, we have tried to address 
affordable housing problems by providing no-interest loans for 
downpayment and closing costs for low-income buyers with HOME 
and CDBG funds; using HOME funds to support affordable housing 
development in Jefferson County; providing security deposit 
assistance to low-income renters in Morgan County; providing 
small grants for housing repair matched with West Virginia 
housing fund loans; and supplementing emergency rental 
assistance to prevent eviction.
    These efforts are not enough by themselves. Local 
governments and our citizens need help to make housing 
affordable for homeowners and renters. We are starting to work 
together as a region to address affordable housing needs and 
the housing needs for all working families, but we have a long 
way to go to make sure every household has decent affordable 
housing. We need your help as housing costs remain high and 
energy and food costs increase faster than wages.
    The Federal Government can help in the following ways: Our 
Federal funding for CDBG and HOME has decreased every year. We 
now receive 25 percent less CDBG funds than we did 4 years ago. 
The Federal Government should not make it harder to help 
ourselves. There is a long waiting list for winterization 
services in Berkeley County.
    We need more Section 8 rental assistance in the Eastern 
Panhandle. We have less than 300 housing vouchers for 12,500 
low-income households. Families are on long waiting lists for 
rental assistance, or the list is closed for a month at a time.
    More fuel assistance is needed so families can remain in 
their homes.
    When our veterans leave the local VA center, they need more 
comprehensive support services and better housing 
opportunities.
    Again, thank you for the opportunity to address the 
subcommittee. I appreciate your interest in understanding our 
affordable housing needs and challenges.
    Thank you, also, Congresswoman Capito.
    [The prepared statement of Mayor Karos can be found on page 
39 of the appendix.]
    Chairwoman Waters. Thank you, Mr. Mayor.
    Ms. Dodson.

STATEMENT OF CATHERINE DODSON, EXECUTIVE DIRECTOR, MARTINSBURG 
                       HOUSING AUTHORITY

    Ms. Dodson. Hello. I am the executive director of the 
Martinsburg Housing Authority. We are considered a small to 
medium housing authority. We have 327 units of public housing, 
and our ACC allows us for 285 vouchers for the Berkeley, 
Morgan, and Jefferson County area.
    Our current budget authority does only allow us to lease up 
and help rental assistance with about 220. We have just 
recently, as was earlier mentioned, been awarded 35 of the HUD-
VASH vouchers for the veterans program.
    Our public housing stock is several years old. Our main 
concern is keeping our units decent, safe, and sanitary, and 
keeping all repairs up.
    I differ with Mr. Bernardi's assumption; I think a small 
housing authority being compared to larger housing authorities 
is a hindrance. Our housing authorities in West Virginia all 
are run very well. When we have to go with the regulations of a 
large housing authority, it does make it harder for us.
    Our biggest concern right now is HUD is asking for asset-
management and project-based accounting. We have to go with 
that if they keep going, because anything over 250 units, they 
want you to do a separate budget and financial work and all of 
the paperwork and have separate staff and everything for 
anything over 250 units.
    All of our five complexes are within 10 blocks of each 
other. We have a central office, and we have a central 
maintenance workshop. And it works out very well. It doesn't, 
in our opinion, make any sense to have to have equipment for 
each complex when we can within minutes take it anywhere we 
need it.
    We have a wonderful maintenance crew who can literally 
build a building from the ground up. If I have to separate them 
out in each complex, and bill their time to wherever they are 
or hire different ones, our people have been working there for 
over 20 years. They are very dedicated, and they are very 
conscientious. When we replace an appliance, for instance, we 
tear it apart if we can't fix it and use the parts for 
something else. We don't just throw it away and replace it.
    The housing authority units are in very good shape, and we 
take pride in that. It would be harder for us to have to do 
that kind of management because you have to divide your staff 
up. When it has taken this long, everybody knows what they are 
doing, and it can be more helpful. It takes more time away from 
us being able to work the units and get things ready.
    We do have a long waiting list. It takes months for someone 
to get public housing once they apply. Section 8 can take from 
a year to 2 years as previously mentioned, and there are times 
when we do close the waiting list when it is unrealistic that 
they are going to wait so long.
    HUD comes in and inspects our public housing units. We have 
always had very good inspections. The inspectors come in, and 
we would like HUD to look over that, too. They can come in and 
give you a bad score on one inspection, and your unit can go 
from a 90 percent to a 40 percent with something.
    Our last inspection in our elderly high rises, some of the 
tenants wrapped their emergency cords near their bed so they 
could reach it better, and that is against the regulations. It 
has to be hanging down straight on the wall. So we tell the 
tenants not to, and of course, they do. That is because they 
need it where they need it, so they can reach it. And then we 
get a bad score, which gives us less money and subsidy and 
things like that. So that is one of the things that small 
authorities, you know, can check on, and tenants do things 
that, you know, you can't control. And then you end up getting 
less of a score.
    So we do feel it is a small authority that needs to be 
looked at a little bit differently than people with thousands. 
They have more staff, and they can do all of the different 
things. But a small authority will run good, and we watch them 
nicely.
    On our Section 8 program, the fair markets rents in this 
area are low compared to the rentals. Since our area is so 
close to Baltimore, D.C., and so many large areas, people move 
in, and they do think our rents sound reasonable. For their 
areas, they are. For our tenants, for our local people, they 
are not affordable. They are very high for our area. And with 
the utilities going up, we worry that the rents are going to 
have to go higher. If the tenant pays the utilities, that means 
we are going to have less money to pay toward the landlord's 
rent because we have to add them together. And their rents are 
going to go up if the landlord is furnishing them, which will 
also put them out of our fair-market rent area.
    We are presently paying 110 percent as a payment standard 
for our fair market rents, which is allowable, and we still 
have a lot of complexes and things that are out of our range 
for our dollars.
    [The prepared statement of Ms. Dodson can be found on page 
37 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Ms. Dodson. You are welcome.
    Chairwoman Waters. Our next witness is Mr. David Ross.

        STATEMENT OF DAVID ROSS, MEN OF VALOR AND VISION

    Mr. Ross. Thank you very much, Chairwoman Waters, and 
Congresswoman Capito.
    My name is David Ross, and I am from an organization called 
M.O.V.V., Men of Valor and Vision. We are a veterans 
organization in the community here. We were established in May 
2006 in my living room. We got together, a couple of veterans 
got together to try to help solve the problem of veterans 
coming from the VA hospital coming into the community and 
finding housing and changing their lives.
    A lot of the veterans are coming from New York, 
Philadelphia, New Jersey, Washington, and surrounding areas. 
And there is a growing number now, and there are more coming to 
Martinsburg because Martinsburg is a friendly place. I find it 
very friendly. That is why I came here. There is less hassle, 
and the people are friendly. They are willing to help. They 
care.
    So we got the organization together. We have been in 
existence now for 2 years. We are located at 732 West King 
Street. We have an establishment now where we house nine 
veterans. We have a program that assists them with their 
living. You know, it is not just a place to live. It is an 
atmosphere they create for veterans to pretty much to better 
themselves, you know, to get some advice on, how do I get an 
ID; have an address so they can have mail sent to them; you 
know, other agencies that work throughout town; how do I seek a 
job, training, and looking out for jobs.
    We are also affiliated with a coalition, Berkeley County 
Coalition for the Homeless. It is not just for veterans; it is 
for anybody who is homeless. As veterans, we volunteer our 
time. We are Vietnam era and Vietnam veterans. We have two guys 
who were in the era of Vietnam, and we have three guys who are 
combat Vietnam veterans. And we all work together volunteering. 
You know, there is no profit. And we just come together and 
have meetings, discuss how to work in the community of 
Martinsburg to help the homeless veterans.
    We don't have any numbers. We deal with them one by one, or 
two by one, whatever the case may be. If they are homeless, and 
they are parked up there at Kmart, or Wal-Mart, sleeping in 
their car, we pull them out of there and help them to do 
better, hook them up with agencies, find them someplace to 
live.
    We have been working with the VA hospital. When they are 
overcrowded and they have no place to go, they call us to see 
if we have available rooms.
    The only problem is now we are being overpopulated. You 
know we don't have enough room to house all these guys. So what 
we do is we just call different agencies around town to see if 
anybody has a room.
    Now, in our program, we have a job development program. We 
have training where our main focus is to cover the guys' 
homelessness and finances, merging back in the community, 
employment, education, housing, legal matters, addictions, 
voting, family, and health.
    Through the VA hospital, they come to us for pretty much 
veteran on veteran, peer to peer. The veterans in the area do 
better talking to other veterans who have experienced a war. We 
are trying to gear ourselves up now for the veterans who are 
going to be coming home from the war that they are in now. They 
need to be attached to another veteran as a buddy-buddy plan to 
help them get over issues as limbs have been cut off. It used 
to be PTSD, but now it is called brain trauma. You know, these 
guys need to talk to other veterans who have suffered brain 
trauma or PTSD. For instance, you have a guy whose legs have 
been cut off, his feet have been cut you have off, and he is 
laying up in bed, and he is saying, hey, can you help me 
scratch my toe? But there is no toe. So how does he deal with 
that? The VA hospital gives you medical insurance and 
psychological. But when you have another person who has 
experienced that scratching of the feet when it is not there, 
it helps them out a whole lot with getting over it.
    We are there just to help the veterans merge back into the 
community, to get back with their families. And we do all we 
can. We are not funded by anybody else. We volunteer to do 
this. Just like I said, right now, we are very small, and we 
need to expand. You know, we have tried. We go for grants, you 
know, to try to expand. We need a bigger building.
    We need more housing that these veterans can afford. A lot 
of them, when they come back, they are not employed. You know 
when they come out of a war zone, the first thing they are, are 
homeless. If they can't go back with their families, if they 
can't go back with their wives or their husbands, you know, a 
lot of times they need to be someplace where they can gather 
their thoughts together and build back their self confidence, 
you know, from what the war has done to them to give them time 
to merge back with the family in the community, to know what is 
new.
    We have cell phones now, and there are different types of 
cell phones. And a lot of guys come home and a lot of things 
will be changed when they come home. And their thoughts are 
different. But we are just seeing them coming home. And to 
them, they are all right. And they are not. They are not.
    So I am just saying, my organization is just here to help 
here in Martinsburg any veterans or any homeless people to make 
the step to be a better citizen.
    [The prepared statement of Mr. Ross can be found on page 42 
of the appendix.]
    Chairwoman Waters. Thank you very much.
    Mr. Rathbun.

  STATEMENT OF DAVID RATHBUN, SENIOR DIRECTOR, SINGLE-FAMILY 
       PROGRAMS, WEST VIRGINIA HOUSING DEVELOPMENT FUND.

    Mr. Rathbun. I am the senior director of single-family 
programs for the West Virginia Housing Development Fund.
    On behalf of the Housing Development Fund, its Board of 
Directors and staff, I want to express my appreciation to 
Chairwoman Maxine Waters and our Congresswoman Shelley Moore 
Capito for inviting me here today.
    The West Virginia Housing Development Fund is a State 
housing finance agency, and our role in West Virginia is quite 
different than others you may have heard from in the past or 
dealt with before.
    The Housing Development Fund only operates qualified 
mortgage bond programs and other Federal programs in the State, 
including low-income tax credits, HOME, and Community 
Development Block Grants. The Housing Development Fund is also 
one of the largest secondary market participants, and it is the 
State's largest servicer of first mortgage loans.
    We have financed and assisted more than 104,000 West 
Virginia families, which has contributed significantly to West 
Virginia's position of being the State with the highest 
percentage of homeownership in the Nation. One out of every 
seven West Virginia families is in a Housing Development Fund 
financed or assisted home.
    Throughout our history, not only have we fulfilled our 
responsibility to the people of West Virginia in order for them 
to be able to acquire affordable housing, but we also have 
approached each of our efforts in a very constructive fashion 
so that our families will be able to afford those homes in the 
long run. We have not sacrificed our underwriting philosophies 
in order to obtain high-volume business, nor have we given up 
on prudent underwriting standards as it relates to our 
multifamily practices today.
    The Housing Development Fund is the Nation's only housing 
finance agency rated AAA by both Moodys and Standard & Poor's. 
And I am pleased to advise you that we look back over our 
delinquencies over the last 6 years, and there are no notable 
spikes in those percentages.
    Being able to offer the wide variety of programs to our 
homebuyer public for more than 20 years, and that includes 
every county, hill, and hollow across the State, has also 
impacted delinquencies and foreclosure rates among our banks, 
mortgage lenders and mortgage brokers. We can thank Fannie Mae, 
USDA rural development, FHA, VA, and our mortgage insurers for 
our continued success.
    We have strong allies in West Virginia, a lot of them in 
the room today, to assist us in our efforts. And we meet 
monthly to discuss programs and efforts as well as our 
problems. Our interagency housing council is made up of 
builders, Realtors, lenders, not-for-profit housing providers, 
and a variety of other agencies who keep us focused and 
attentive to the needs of West Virginia home buyers.
    This council has stressed homebuyer counseling which has 
led to a strong funding effort by the Housing Development Fund 
and our State Affordable Housing Trust. We have a homebuyer 
counseling organization in each county. We require low-income 
buyers and our high loan-to-value customers to obtain the 
counseling.
    I will discuss a few of our programs now. The most utilized 
program for addressing the needs of affordable housing by 
Statewide borrowers is our Qualified Mortgage Bond program, 
better known as QMB. QMB provides a low fixed-rate mortgage for 
mostly first-time homebuyers under an income limit per county. 
Each year, we help more than 2,000 families to chase the dream 
of homeownership through the QMB program.
    In addition to this benefit of borrowing up to 100 percent 
of the sales price of the home in the form of a loan, veterans 
are now allowed to take special advantage of this program even 
if they are not first-time home buyers. This additional benefit 
took effect on June 17, 2008, with the enactment of the Heroes 
Earnings Assistance and Relief Act.
    An additional challenge facing homebuyers is the 
downpayment required on most mortgages. To alleviate this 
burden on homebuyers, we created the Home Ownership Assistance 
Program. In essence, the program allows borrowers to obtain a 
loan up to $5,000 to cover the costs of downpayment and closing 
costs associated with the purchase of their home.
    It should be also emphasized that, in addition to stick-
built homes, our loans may be used for the purchase of 
condominiums, townhouses, and used manufactured housing, 
permitting the borrower to choose the type of property which 
best suits his or her needs and affordability.
    With West Virginia being mostly a rural State with a small 
community lender base, government-sponsored entities such as 
Fannie Mae and Freddie Mac encountered problems in lending to 
its banks and directly to the homebuyers in this State. In 
1991, we established a solid relationship with Fannie Mae to 
act as a conduit to provide mortgage lending. And to date, we 
have provided almost $1 billion to the citizens.
    As well as our main loan programs, we address the needs of 
the current homebuyers in repairing existing homes through such 
programs as HELP and Onsite Loan Program. The HELP program 
funds provide for emergency repairs to owner-occupied 
structures so that the families may live in a safe, warm, and 
dry environment. Loans up to $10,000 may be used to cover such 
items as heating systems, plumbing, electrical wiring, and 
roofing.
    In September 2007, we partnered with the Department of 
Environmental Protection to provide an Onsite System Loan which 
allows the State residents to upgrade, replace, or repair 
inadequate septic tank systems. We do recognize that the 
current economic conditions require further steps and actions 
to be taken to facilitate safe, decent, and affordable 
opportunities for the citizens of the Mountain State.
    We have been working with our National Council of State 
Housing Agencies in passing our Statewide concerns for 
incorporation into the Home and Recovery Act of 2008.
    Again, I would like to thank Chairwoman Waters and Ranking 
Member Capito for inviting me here today and I hope that your 
West Virginia experience is one that will not only be 
informative, but will benefit you in the future when you decide 
on programs.
    Thank you.
    Chairwoman Waters. Thank you very much.
    I will recognize myself for a few questions.
    Mr. Mayor, I agree that CDBG funds are very important, and 
most cities would like to have more funds. Many cities are 
trying to develop additional resources in addition to the 
Federal funds, CDBG and HOME funds. Some people are trying to 
create housing trust funds where they are able to attract money 
from other sources to help supplement what they are getting in 
CDBG and in other ways.
    And I am not sure how you work with the Housing Finance 
Agency, but have you been in discussion about maybe a housing 
trust fund, or is there something that is going on with the 
finance agency that could expand opportunities for assisting 
would-be homeowners?
    Mr. Karos. Madam Chairwoman, I cannot answer that question 
right now. But I will certainly get the answer back to you.
    We have a lady by the name of Mrs. Pat McMillan who takes 
care of the HOME Consortium and also the Development Fund. And 
she has done a fantastic job with spreading the dollars. She 
sometimes gets $1.02 or $1.03 out of a dollar. She can 
certainly answer that.
    If she is permitted under the rules of the hearing, she is 
here now. If you would like for her to address that, we can. If 
not, I can answer it by e-mail or whatever. Is that 
permissible?
    Chairwoman Waters. Yes. Certainly, if you would like, that 
is certainly permissible.
    Mr. Karos. Ms. McMillan.
    I was always told a long time ago, surround your people 
with excellent help, and you don't have to worry about a lot of 
things. And she is one of them.
    Chairwoman Waters. That is true. That is very good.
    Ms. McMillan. Thank you, Chairwoman Waters.
    Actually, we have not been in direct discussion on a 
housing trust fund.
    Mr. Rathbun can certainly attest to the lengthy effort and 
actually success in Statewide affordable housing trust fund 
being established for all of West Virginia. And I will 
certainly let Mr. Rathbun address that.
    We have not at this point looked for new--basically revenue 
streams or dedicated revenue streams for housing out of local 
resources.
    Chairwoman Waters. Thank you.
    Yes, Mr. Rathbun.
    Mr. Rathbun. We are very fortunate in the State. I think it 
was approximately 3 or 4 years ago that Ms. Skeens, who is in 
the room, and several of our advocates got our trust fund up 
and running in the State. They only forgot one thing, and that 
is the funding mechanism. It was up and running but no money.
    We are very pleased in the last session in the State that 
we are able to facilitate the money for that trust fund. We 
charge a $20 fee on every real estate transaction in the State 
that goes directly to the housing trust fund. And we have 
donated, as the Housing Development Fund, some money to that 
fund also.
    We are also pleased to announce that with--I think she is 
in the room. She can raise her hand. Our new executive 
director, our very first executive director, and she has been 
on the job for about 3 weeks, so I don't know why she hasn't 
accomplished much more. But she is here today. So we are moving 
forward with the housing trust. And we hope that will help 
facilitate affordability in the State.
    Chairwoman Waters. That is very good. Thank you very much.
    Ms. Dodson, I don't really have a question for you, except 
I saw Mrs. Capito taking down information that you were 
sharing. And I suspect that she will be talking further with 
you about what you discussed with us today, because it sounds 
as if you have come up with some very cost-effective ways by 
which to do some management here. And you are absolutely 
correct, in my estimation, if you have a complex that is 
located where the units are located in close proximity, you 
certainly ought to be able to take advantage of that. So I am 
going to leave that to Mrs. Capito to deal with.
    Mr. Ross, it sounds as if you are trying to take care of a 
lot of veterans without a lot of resources. That is a 
commendable thing that you are doing. I am very fortunate in my 
district to have the U.S. VETS, and U.S. VETS is responsible 
for not only housing some of our veterans, but they, too, have 
substantial job training programs, and they are dealing with a 
lot of veterans who need a lot of care based on the experiences 
to which you alluded.
    So my question to you is, much of what is needed, I 
suppose, is responding to requests for a proposal or finding 
ways by which to reach out to make sure that you are accessing 
those dollars that are available through government and also 
through private sources. Do you have a foundation-type person 
who helps to write the proposals and go after the money?
    Mr. Ross. Well, what I do have, I have a very close friend, 
whose name is Dr. Grove, and he has been assisting M.O.V.V. in 
every endeavor that we have had. And he pretty much has been a 
leader in helping us trying to get proposals together, applying 
for grants.
    Right now, with the assistance of the men we have in our 
organization, we are limited to certain things. You know, I am 
the president. And I am barely at the office. I am in the 
street with the homeless persons. So, you know, we are pretty 
much hands-on with the situation more or less than the business 
aspects.
    I have a CEO who is not here right now. He is in bad 
health. But if it pleases the hearing now, could I have Dr. 
Grove come up and give you more of an explanation of some of 
the issues?
    Chairwoman Waters. Certainly, if you would like. We can 
hear from him for a few minutes.
    Would you state your name for the record for us, please.

  STATEMENT OF EDWARD GROVE, PASTOR, TRINITY UNITED METHODIST 
          CHURCH; AND MEMBER, MEN OF VALOR AND VISION

    Mr. Grove. My name is Dr. Edward Grove. I am the pastor of 
Trinity United Methodist Church here in Martinsburg, West 
Virginia and a part of the Men of Valor and Vision group and 
the Shalom Ministries Project out of which that program has 
developed.
    David is absolutely right. This has been a grassroots 
group. They have, by their very tenacity, pulled together money 
out of their own pockets and everybody that they can grab on 
the street to give them a nickel or a dime. They have done 
everything that they knew how to do to provide resources in a 
variety of ways.
    We are now developing for them a 501(c)3 nonprofit document 
so that they can become a part of that process and to open up 
some more channels in that regard for them to be able to access 
some of the dollars to which you allude.
    They are a group that has done extraordinary work in the 
area of being perhaps more hands-on than organizational, and it 
is that organizational piece that now needs some more attention 
and some work.
    Chairwoman Waters. Well, thank you very much. That is very 
commendable. And I am very sure that there is a lot of help 
around. Establishing a 501(c)3 is extremely important to be 
able to receive money and to respond to requests for a 
proposal. So I certainly wish you well in doing that.
    Thank you very much.
    I will now yield to Mrs. Capito.
    Mrs. Capito. Thank you, Madam Chairwoman.
    I want to thank all the folks who have brought forth some 
great issues. I want to start with the mayor.
    Thank you, Mayor, for your great words.
    You kind of had a little underpinning message there with 
some of the issues that you are finding, and that is the cost 
of energy. Of course, we have been debating energy, mostly 
gasoline price type of energy. But you talk about heating, home 
heating, and we know West Virginia has some pretty cold 
winters.
    What kind of help are we able to give now? I know we have 
LIHEAP and some other programs that we use to help people with 
their home heating issues if they can't afford it. How do you 
keep a handle on that, I guess is my question, or how are you 
getting that feeling? What kind of feedback are you getting?
    Mr. Karos. If I may, Madam, I would ask, again, Ms. 
McMillan to respond to that. I am sure if I do, I will miss 
something, and then I will be told about it later.
    Mrs. Capito. Okay.
    Mr. Karos. With that being said, let me call Ms. McMillan 
back.
    Ms. McMillan. We do have the Federal energy assistance 
available through the Department of Health and Human Resources, 
and our United Way has taken a lead, along with a number of--
our Health and Human Services collaborative throughout the 
Eastern Panhandle to raise private donations to supplement the 
LIHEAP money that is available. I believe that in the past year 
they were able to raise about $39,000 to supplement this.
    But what you will hear from every helping organization in 
our collaborative is that they are out of funds by January to 
do utility supplements. And the national story is the story 
here. Fuel costs are up. That drives up the cost of food and 
just daily necessities, and we are just very concerned.
    I had a call from a veterans shelter operation the other 
day, and they said that their bill was $3,000 a month last 
winter, and they don't know what they are going to do this 
winter, except maybe just close. And I don't have the answer. 
We do have a volunteer effort here in Berkeley County raising 
close to $40,000 a year to supplement the Federal money.
    Mr. Karos. I would like to add to that.
    Thank you, Ms. McMillan.
    Also, the City of Martinsburg has a policy in hand whereby, 
if someone cannot afford to pay a utility, such as water and 
sewer and garbage, some other things, I think our ordnance 
states, we will let that ride for ``X'' number of months. And 
we send notices and notices, and then we finally--by law, we 
have to cut that utility off. And that is another way the City 
has helped. But we don't like to advertise that a lot because 
some people may somewhat take advantage of it, be somewhat 
delinquent when they shouldn't be delinquent.
    Mrs. Capito. Thank you, Mayor.
    Another follow-up question.
    Madam Chairwoman, you might be interested to know that 
Martinsburg is the number-one fastest-growing city, I believe, 
in the State.
    Is that correct?
    Mr. Karos. That is correct.
    Mrs. Capito. And with that comes some issues. But I am 
wondering, with the slowdown in the real estate market, and the 
rise in energy costs, are you seeing--I know you can't monitor 
that day to day. But do you anticipate that is going to be a 
slowdown? Or have you even contemplated that?
    Mr. Karos. We have talked about in the City Hall Finance 
Department, we have seen a decline in building permits which in 
turn means a decline in income for the City of Martinsburg. I 
cannot answer. Something that has really bothered me, the 
economy is so bad, everything goes up, but yet people are still 
building homes, regardless of whether it is in West Virginia, 
anywhere you go across this country. And I just don't know how 
they are doing it, why they are doing it if the market is so 
bad.
    Mrs. Capito. Well, I think that certainly you see that 
every day. I am a frequent visitor to the Eastern Panhandle, 
but even coming monthly, if I drive down a different street, it 
is like, whoa, there is another set of new homes. And perhaps 
that is catching up with the Eastern Panhandle. I was talking 
with some Realtors and home builders last night. There are more 
vacancies. There are more houses on the market than there had 
been historically through the last several years. And that is 
why you are seeing a slowdown in the prices and that.
    I was just wondering kind--I don't even know that there is 
an answer to this--whether the population growth can continue 
when everything is sort of stagnating, although our property 
prices still are lower significantly than they are in other 
areas.
    Mr. Karos. For what it is worth, I talked to an investor 
just yesterday morning over breakfast. He acts as a bridge loan 
between the bank or whomever, and he said, ``I have not had any 
business for at least 35 days.'' He is a very detailed 
individual; he marks down everything. And he said, ``It has 
finally hit Berkeley County.''
    Mrs. Capito. I would like to ask Catherine a question, 
because you were in stark contrast to what Mr. Bernardi--and 
this is what I am going to take back to Mr. Bernardi. And we 
have had this discussion in Congress, you know, as a one-size-
fits-all approach for a large public housing authority and 
smaller ones. I mean, economies of scale, obviously, I mean, 
good sense tells you there is no way that all the requirements 
of a large one should be foisted down on the smaller housing 
authority. And so I will carry your message back. And when he 
answered that question like that, we already knew that you 
disagreed with him. So I wanted to say, wait a minute.
    But I wanted you to get your testimony in front of us to 
make sure that we knew that. I want to ask about the waiting 
list because we hear this quite a bit, that there are very, 
very long waiting lists. The properties I toured this morning, 
I toured two properties that were built by low-income tax 
credits. I asked, how do you get your new tenants? And it kind 
of surprised me that they didn't say they pick them right up 
off the waiting list, because they said the waiting list gets 
stale sometimes because people can't wait on a list to find 
some place to live. Hopefully, they found a place at some 
point.
    How long do they remain on the waiting list? What kind of 
follow-through do you--and I know you are a small place, and 
you can't keep recalling people. But do you find the waiting 
list is an accurate reflection of people who are waiting? Or 
are they waiting to move to better housing or more affordable 
housing? How do you see your waiting list in terms of a true 
reflection of people--how do you interpret it, I guess? I don't 
want to put words in your mouth.
    Ms. Dodson. Our waiting lists are pretty accurate. They are 
required to call every 60 days to let us know they are still 
interested. For public housing, we tell them it could be 6 
months or longer. Sometimes they are not interested once they 
move. There is a possibility that where they are staying, a lot 
of them are staying with other people, or they are staying 
where they can't really afford it.
    So once you offer them something, they may still be wanting 
to move. Section 8 list, they wait however long it takes. They 
either want the assistance where they are at now, or they will 
find someplace else that will--
    Mrs. Capito. That is a longer list, the Section 8?
    Ms. Dodson. Yes. It takes longer because the public housing 
people move in and out of--you know, they find something else, 
they move out. So we get a vacancy rate. On a Section 8, they 
can use it wherever they want to move. If they want to 
relocate, they can take the assistance with them, so unless 
their income goes up or they violate the program, they don't 
come off the list as often. Therefore, they keep their 
assistance for years and years.
    Mrs. Capito. Okay. Thanks.
    Mr. Rathbun, some of the problems in the subprime market 
that we heard a lot about were loans that were given to people 
that had no documentation as to their income. They had no 
downpayment. They had no escrow for their taxes or insurance. 
And I guess, as you look at it from the long view, now that 
this--we are seeing what is happening, they had the adjustable 
rate mortgages, you kind of say to yourself, why wasn't anybody 
at least asking for documentation of their income?
    You mentioned that all of the financing that you do 
requires documentation. Have you ever had any experience with 
any of these kind of provisions that have led us into a 
troubled area?
    Mr. Rathbun. We are very fortunate in the State that we 
have--the State as a whole, we talk about the list, that we are 
proud of being at the bottom of. We are actually at the very 
bottom or very close to the bottom of loans in the predatory 
lending category. I think we rank 45th or 47th in that 
category. We did not buy into, as a State, the predatory loans 
with the low-docs.
    Ironically, the States right around us, Virginia housing, 
Maryland housing, to get their first-time home buyers 
affordable, they had to go to the interest-only type loans, the 
low-doc loans. It was a challenge that they took on very 
reluctantly. We were able to dodge that bullet.
    So it is very difficult to assess how we get got there. I 
think I read an article several years ago that said there is 
everybody to blame, and there is nobody to blame. You have the 
large mortgage companies who started the low-doc, no-doc type 
loan, and it spread to the GSEs that had to keep suit. And they 
expanded their underwriting to expanded underwriting with 
ratios of 60 percent, which is a debt ratio that we analyze, 
got much more liberal than we probably should have during those 
years. And now we see the results of that.
    So to answer your question, I think there are a lot of 
factors and a lot of partnerships that can take blame in what 
has happened.
    Mrs. Capito. Well, I would like to say, in West Virginia, 
and we have quite a few lenders in the room, and folks who deal 
in this area every single day, and that is the beauty of a 
place like West Virginia. We are community bankers. We are 
community Realtors. We are community brokers, and a lot of 
times, if we don't know you, we know somebody who knows you or 
somebody who went to school with your child or whatever. And so 
we have that, and we want to keep that, and I think that is 
probably what has kept us at the lower end of this scale in 
terms of the predatory lender or the subprime lending.
    So I am proud of the fact that we are--and that, I think, 
is why we are so low on the foreclosure list. So I think that 
is kind of a contributing factor as well. And we want to keep 
that. We want to keep that going.
    Mr. Ross, thank you for your testimony and for what you are 
doing. We have heard through some of the testimony, I think Mr. 
Bernardi talked about--I can't remember which one it was--the 
VASH, the Veterans Homeless Assistance. I think that when your 
organization grows and you get your certifications, this is 
something that we have tried to address as a Congress, 
homelessness for our veterans. Actually, one of our colleagues 
from Texas had a bill before Congress--oh, gosh--2 weeks ago to 
ask for a coordinator between HUD and the VA, because what 
happens a lot--and I think everybody can identify with this--
you get caught between the cross-hairs of two different Federal 
agencies, and sometimes you get lost.
    And so I know you are helping a lot of lost people, but I 
think as this moves on, what you are doing is really going to 
play into where some of these programs are going to go. And I 
am glad you are there. And anything we can do to help you, you 
know, keep your organization going and moving in the right 
direction, we want to do that.
    So I appreciate your testimony today.
    Mr. Ross. Thank you very much.
    Mrs. Capito. I wanted to ask another question.
    I think maybe Mr. Rathbun might answer this. As part of the 
housing bill that we passed last week--I don't know about you, 
but when I first came to Congress, I heard about Fannie Mae and 
Freddie Mac, and I thought, who are they? Do I know them? It is 
a very complicated financing system, and I think that a lot of 
people feel sort of removed from whether the stability of 
Fannie Mae and Freddie Mac is really going to influence their 
lives? Is that really going to help them? And if you could kind 
of bring it down to the street level to say why the financial 
stability of these two organizations is extremely important and 
what we did to shore them up is going to help everybody's 
mortgage and everybody getting the next mortgage and their kids 
being able to get the next mortgage and all that.
    Mr. Rathbun. That is a very good question, because you 
can't ignore somebody that owns one out of every two loans in 
the Nation. And if you allow that conduit, who has financed all 
those loans, go under, the whole financial situation could 
collapse very rapidly. So it is very, very important what the 
bill did. And through our State Housing Agencies Association, I 
am glad we put our input into that and that you did pass it. It 
is very important that these two entities stay very healthy.
    And to bring it down to the grassroots, what you saw with 
the GSEs is the tightening of credit. It is just like any other 
private company; when foreclosures or losses start to mount, 
you tighten the new business. So what they did was tighten the 
new business coming through, raise credit score criteria, raise 
downpayment criteria back to where it was before, and what that 
caused is a snowballing effect between people being able to get 
new credit while maintaining. So the bill that shores up the 
stop gap for the GSEs is very, very important for the stability 
of every new buyer in the Nation.
    And your question is very well taken because a lot of 
people don't realize that.
    Mr. Donald Hoke. A suggestion on that, Fannie Mae and 
Freddie Mac, they ought to go after those bonuses they paid 
themselves. That would build a lot of free, low-income housing.
    Chairwoman Waters. If I may just add to this, because I 
know a lot of people are concerned. There is a lot of reform 
that is also built into this legislation. We are going to have 
a new agency that is going to oversee the GSEs, Fannie and 
Freddie.
    And we also do a number of other things. We will be lending 
money if we have to or investing from the Treasury, but we will 
be first in line to be repaid, and we won't allow them to pay 
any dividends until we are taken care of. And we also go after 
the big salaries and the bonuses. So I think you are going to 
be happy with this.
    Mr. Donald Hoke. Amen, sister.
    Chairwoman Waters. Thank you.
    Mrs. Capito. Thank you.
    I yield back.
    Chairwoman Waters. Thank you very much.
    I would like to thank the Berkeley County Commission and 
Mr. Steve Teufel for allowing us to be here today.
    I would also like to thank Mrs. Capito for inviting me 
here. One of the good things about being subcommittee Chair or 
Chair of a committee is you get to move around and see America.
    This is the first time I have been to West Virginia, and I 
am just delighted to be here.
    And Mr. Mayor, you talk about your needs. Mr. Ross said 
that this is a friendly place, so people are going to keep 
coming. And you can be proud of that, even though it means that 
you have got to have more resources to deal with it.
    But I am very pleased that you invited me here today.
    And to Mrs. Capito, I hope that this hearing has helped to 
give you additional insight into areas that you perhaps will be 
even more active in.
    And having said that, there may be additional questions 
that we may have for this panel and for the first panel. If so, 
we will submit them in writing. So, without objection, the 
hearing record will remain open for 30 days for either of us to 
submit written questions to any of these witnesses and to place 
their responses in the record.
    Let me just say that if there are any written statements 
that you may have in addition that need to be submitted, 
without objection, we will do that at this time.
    And if you would like to make a closing statement, please 
do.
    Mrs. Capito. I would like to thank the president of the 
commission, Steve Teufel. I have written myself four notes to 
thank him.
    He brought to my attention the Eastern Panhandle Home 
Consortium and I think the mayor mentioned, and I think the one 
thing that becomes clearer every time I visit, but today for 
Chairwoman Waters, is that we live in a community that helps 
one another. And if you listen to the thread that goes through 
everybody's testimony, and as I look at the faces of the folks 
in the audience, we work together quite a bit. And this is 
through the whole spectrum of housing in the Eastern Panhandle. 
We have unique challenges here, separate and apart from what is 
going on in the rest of the State.
    And I didn't get a chance to correct Mr. Bernardi. I feel 
like I am picking on him. But I saw all the eyebrows go up when 
he said the largest housing authority that handles everything 
in the Panhandle is from Charleston. That is like saying, 
everything in your district is handled in San Francisco. That 
is like death. So we will correct him for the record.
    But I want to thank you, again, Chairwoman Waters.
    I thank all of you all for being here, and I just 
appreciate it. Thank you.
    Chairwoman Waters. Thank you.
    We are on our way back. We have votes this evening, and a 
lot of work to do. But it has been a delight and a pleasure to 
be here, and this hearing is now adjourned.
    Thank you.
    [Whereupon, at 12:56 p.m., the hearing was adjourned.]


















                            A P P E N D I X



                             July 29, 2008

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
